Appendix A

Appellate Case: 20-4104

Document: 010110535639

Date Filed: 06/15/2021

-------------------------- ----------------- -----------

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Page: 1

June IS, 2021
Christopher M. Wolpert
Clerk of Court

ZACHARY R.E. RUSK,
Plaintiff - Appellant,
v.
FIDELITY BROKERAGE
SERVICES,

No. 20-4104
(D.C. No. 2:15-CV-00853-RJS)
(D. Utah)

Defendant - Appellee.
ORDER AND JUDGMENT*
Before HARTZ, BRISCOE, and BACHARACH, Circuit Judges.
This appeal grew out of Mr. Zachary R.E. Rusk’s suit for
discrimination by his former employer, Fidelity Brokerage Services. The
district court dismissed the suit, and Mr. Rusk moved for sanctions under
Federal Rule of Appellate Procedure 11. The district court denied the

We conclude that oral argument would not materially help us to
decide the appeal. So we have decided the appeal based on the record and
the parties’ briefs. See Fed. R. App. P. 34(a)(2)(C); 10th Cir. R. 34.1(G).
Our order and judgment does not constitute binding precedent except
under the doctrines of law of the case, res judicata, and collateral estoppel.
But the order and judgment may be cited for its persuasive value if
otherwise appropriate. See Fed. R. App. P. 32.1(a); 10th Cir. R. 32.1(A).

Appellate Case: 20-4104

Document: 010110535639

Date Filed: 06/15/2021

Page: 2

motion, and Mr. Rusk challenges the denial of his motion for sanclionsT
We affirm.
The district court denied the motion on grounds that Mr. Rusk had
failed to serve opposing counsel at least 21 days before filing
the motion,
waited too long by moving for sanctions roughly 16 months
after dismissal of the action, and
•

failed to explain how defense counsel had caused the dismissal
by making misrepresentations to the court.

Mr. Rusk waived a challenge to the third reason, and we agree with the
first two reasons.

1
In the course of appealing the denial of sanctions, Mr. Rusk
complains about three other rulings:
1.

Dismissal of the suit (April 30, 2019)

2.

Denial of the first motion to reopen (May 22, 2019)

3.

Denial of the second motion to reopen (November 19, 2019)

The appeal is late for a challenge to the first two rulings. See Fed. R. App.
P. 4(a)(1)(A) (providing a general 30-day deadline for appeals in civil
cases), (a)(4)(A)(vi) (stating that a timely Rule 60 motion tolls the start of
the appeal deadline until entry of the order on this motion), (a)(4)(B)(ii)
(providing a 30-day period to appeal the denial of a Rule 60 motion).
The appeal is timely as to the third ruling, but he waived this issue
by failing to develop a related argument. See United States v. Wooten, 377
F.3d 1134, 1145 (10th Cir. 2004) (declining to consider “issues adverted to
in a perfunctory manner, unaccompanied by some effort at developed
argumentation” (internal quotation marks omitted)).
2

Appellate Case: 20-4104

Document: 010110535639

Date Filed: 06/15/2021

Page: 3

Because the district court gave three independent reasons for^d'enyiTTg
the motion, Mr. Rusk had to challenge all of the reasons. See Lebahn v.
Nat’l Farmers Union Unif Pension Plan, 828 F.3d 1180, 1188 (10th Cir.
2016) (“When a district court dismisses a claim on two or more
independent grounds, the appellant must challenge each of those
grounds.”). Given Mr. Rusk’s failure to challenge the third reason for
dismissal, we could affirm on this basis alone. See Starkey ex rel. AB v.
Boulder Cnty. Soc. Servs., 569 F.3d 1244, 1252 (10th Cir. 2009) (“When an
appellant does not challenge a district court’s alternate ground for its
ruling, we may affirm the ruling.”).
Despite this failure by Mr. Rusk, we address his challenges to the
first and second rationales. In assessing the correctness of these rationales,
we apply the abuse-of-discretion standard. Roth v. Green, 466 F.3d 1179,
1187 (10th Cir. 2006). Under this standard, the district court did not err in
denying Mr. Rusk’s motion for sanctions based on the first two rationales.
The federal rules require service of a motion for sanctions at least 21
days before filing it. Fed. R. Civ. P. 11(c)(2). Despite this requirement,
Mr. Rusk did not serve his motion before filing it.
He argues that he substantially complied with the requirement by
sending counsel a letter, which threatened to sue him for his
misrepresentations. This argument fails factually and legally. The
argument fails factually because Mr. Rusk’s threat did not mention Rule
3

Appellate Case: 20-4104

Document: 010110535639

Date Filed: 06/15/2021

Page: 4

11, identify any misrepresentations, demand their withdrawal, or say that
he was going to move for sanctions. The argument fails legally because our
precedent requires service of the actual motion to be filed; warning letters
are insufficient. Roth v. Green, 466 F.3d 1179, 1192 (10th Cir. 2006).
Under this precedent, Mr. Rusk’s threat to sue did not relieve him of the
obligation to serve his sanctions motion 21 days before filing it. We thus
uphold the district court’s first rationale for denying the motion.
The court’s second rationale is also sound. Mr. Rusk not only failed
to serve the motion in advance but also filed it too late. In our circuit, a
sanctions motion must be filed before the entry of judgment. Id. at 1193.
But Mr. Rusk waited to file the motion for sanctions until roughly sixteen
months after the entry of judgment. The court thus acted within its
discretion in reasoning that Mr. Rusk had waited too long to file the
motion for sanctions. Cf. id. (holding that the district court had abused its
discretion by granting a motion for sanctions under Rule 11 that had been
filed after the entry of judgment).
* * *

We affirm the denial of Mr. Rusk’s motion for sanctions. The district
court gave three reasons for denying the motion, and Mr. Rusk did not
address one of these reasons. We could affirm on this basis alone. But even
if we were to disregard this omission, his challenges would fail: His threat
to sue did not satisfy the duty to serve the motion for sanctions, and he
4

Appellate Case: 20-4104

Document: 010110535639

Date Filed: 06/15/2021

improperly waited to file the motion until after the court had already
entered the judgment.
Entered for the Court
Robert E. Bacharach
Circuit Judge

5

Page: 5

Appendix B

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5648 Page 1 of 17

UNITED STATES DISTRICT COURT
DISTRICT OF UTAH

ZACHARY R.E. RUSK,
ORDER

Plaintiff,

Case No. 2:15-cv-00853-RJS

v.

Chief District Judge Robert J. Shelby

FIDELITY BROKERAGE SERVICES LLC,
Defendant.

Plaintiff Zachary R.E. Rusk initiated this employment discrimination civil rights action in
December 2015 against his former employer, Defendant Fidelity Brokerage Services LLC. On
April 30, 2019, the court entered an Order dismissing Rusk’s Third Amended Complaint2 and
entered Judgment in favor of Fidelity.3 On May 22, 2019, the court overruled Objections to the
Order and Judgment Rusk had lodged on May 13, 2019.4 On November 19, 2019, the court
denied a Motion Rusk brought on October 23, 2019 pursuant to Federal Rule of Civil Procedure
60(d)(3).5 Now before the court are certain Motions and other filings from Rusk:
1.

Objection/Point of Information and Request for Clarification re: Order on

Plaintiffs Rule 60 Motion, 6

1 Dkt. 4.
2 Dkt. 266.
3 Dkt. 267.
4 Dkts. 271 (Objections) and 273 (Order).
5 Dkts. 281 (Motion) and 282 (Order).
6 Dkt. 286.

1

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5649 Page 2 of 17

2.

Ex-Parte Notice of [United'States'Supreme CourtJ’tetter and-ex-parte -Motion-for

Extension to File Appeal/ Notice of Appeal to [United States Tenth Circuit Court of Appeals],7
8

3.

Request to Submit for Decision, or Recuse,

4.

Rule 11 Motion, in which Rusk seeks to have the case reopened or for the court to

sanction Fidelity’s counsel,9
5.

An Affidavit which attaches as an Exhibit a Letter of Intent to Sue counsel for

Fidelity,10
6.

An email purportedly from a process server regarding attempted service of an

unidentified document on counsel for Fidelity,11
7.

A single-page return of service indicating that a “LETTER, AFFIDAVIT IN

SUPPORT OF RULE 11 MOTION WITH ANEXHIBIT [sic], RULE 11 MOTION, EXHIBITS”
were served upon counsel for Fidelity,12
8.

Request to Submit for Decision Rule 11 Motion,13

9.

Ex-parte Request for Status Update,14 and

10.

Notice of New Information.15

The court takes up Rusk’s filings in which he seeks relief in the following order, and for the
reasons discussed below:

7 Dkt. 289.
8

Dkt. 290.

9 Dkt. 291.
10 Dkt. 292.
"Dkt. 293.
12 Dkt. 294.
13 Dkt. 295.
14 Dkt. 269.
15 Dkt. 297.

2

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5650 Page 3 of 17

1. The Objection16 is overruled,—

'

-

2. The Motion for Extension to File Appeal17 is granted in part, as the court grants Rusk a
fourteen (14) day extension of time to file a proper notice of appeal of the November 19,
2019 Order at issue, and denied in part, as the court denies Rusk’s alternative request for
a three-district judge hearing on his Rule 60 Motion;
3. The Rule 11 Motion18 is denied;
4. The Request to Submit for Decision Rule 11 Motion19 is granted;
5. The Request to Submit or Recuse is granted in part as the court is ruling on all pending
motions and requests, and denied in part, as the court declines the alternative request to recuse;
and
6. The Ex-Parte Request for Status Update20 is denied as it is moot given the court’s rulings.

BACKGROUND
Rusk litigated this action for over two years without legal counsel. During this time, he
sent voluminous emails to Fidelity’s counsel. Fidelity responded by moving the court to limit
Rusk’s communications. The court granted Fidelity’s request in an Order Granting Defendant’s
Motion to Limit Contact (Order Limiting Contact), noting that some of Rusk’s emails
“contain[ed] veiled threats” while others were “simply irrelevant to the instant litigation.”21 The
court limited Rusk’s communication with Fidelity’s counsel “to non-threatening, relevant

16 Dkt. 286.
17 Dkt. 289.
18 Dkt. 291.
19 Dkt. 295.
20 Dkt. 296.
21 Dkt. 36 at 1.

3

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5651 Page 4 of 17

matters involving this litigation,” and "to no more tnan three such-communieatioFis-per-day.,”-----warning Rusk that “[v]iolation of this order may result in sanctions.”
Rusk obtained counsel in February 2018.22 Three lawyers represented him at various
times, but by the spring of 2019, Rusk was again acting pro se.
On March 13, 2019, Rusk filed a Motion for Judgment on the Pleadings or, in the
Alternative, for Partial Summary Judgment.23 But the court stayed its consideration of Rusk’s
Motion to first resolve Fidelity’s earlier-filed Motion for Order to Show Cause why Rusk should
not be held in contempt for violating the Order Limiting Contact24 requiring him to curtail
communications with Fidelity’s counsel. Rusk had violated the Order by sending opposing
counsel numerous and threatening emails.
Following a hearing on April 30, 2019, the court issued a Memorandum Decision and
Order dismissing Rusk’s Third Amended Complaint as a sanction for his violations.25 That same
day, Judgment was entered in Fidelity’s favor,26 and the case was closed.
On May 13, 2019, Rusk filed an Objection to Order,27 objecting to the Memorandum
Decision and Order and the court’s entry of Judgment.28 Construing the Objection liberally as a
Motion brought under Federal Rule of Civil Procedure 60(b), the court on May 22, 2019
overruled Rusk’s objections and denied any relief Rule 60(b) might have afforded.29

22 Dkt. 152, Notice of Appearance filed by Zachary Myers of the law firm Hepworth & Associates.
23 Dkt. 243.
24 Dkt. 36.
25 Dkt. 266.
26 Dkt. 267.
27 Dkt. 271.
28 Id. at 1.
29 Dkt. 272.

4

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5652 Page 5 of 17

Five months later, on October 23; 2019, Rusk_bTougm-aTrew-RTile-60-Motion-speeifiGal.l-yciting Rule 60(d)(3) and arguing under it that a fraud on the court had been perpetrated.30 On
November 19, 2019, the court issued an Order denying that second Rule 60 Motion.31
On November 21, 2019, Rusk objected to the November 19 Order on the grounds that the
court had failed to “address [his] Rule 60 motion in terms of Rule 60(b)(6).”32 Then, nineteen
days later, on December 10, 2019, Rusk filed a Notice of Appeal alerting the court that he had
appealed the denial of his October 2019 Rule 60 Motion to the Supreme Court.33 A Petition for
Writ of Certiorari to the Supreme Court dated December 4, 2019 is attached as an exhibit to that
Notice.34
On January 13, 2020, Rusk filed with this court a Motion seeking an extension of time to
appeal his case to the Tenth Circuit Court of Appeals, or alternatively for a rehearing of his Rule
60 Motion “en banc or at least a three judge district court panel.”35 Rusk brought the Motion in
apparent response to a December 19, 2019 letter from the Office of the Clerk of the Supreme
Court.36 In that letter, the Supreme Court Clerk identified certain deficiencies with Rusk’s
Petition, and returned it to him.37 One of the deficiencies identified was that a “direct appeal
from a United States district court is allowed only from a three-judge district court order,” and

30 Diet. 281.
31 Dkt. 285.
32 Dkt. 286 at 1.
33 Dkt. 288.
34 Dkt. 288 at Ex. 2.
35 Dkt. 289 at 1.
36 Dkt. 289 at 10.
37 Id.

5

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5653 Page 6 of 17

the proper procedure in Rusk’s case was to '•timely petiti on~7TT-after-entry-of-judgment ima------United States court of appeals.”38
On February 5, 2020, Rusk filed a Request to Submit for Decision, or Recuse.39 In it,
Rusk argues the court has acted improperly by not having ruled on his requests and motions,
which were filed in the prior two and a half months. He asks the court to either recuse from the
case or rule on the prior motions.
On August 1, 2020, Rusk filed what he styles a Rule 11 Motion.40 In it, he asks the court
to either: 1) reinstate the case and rule on his Motion for Judgment on the Pleadings, or, in the
Alternative, for Summary Judgment; or 2) order Fidelity’s counsel to pay him 4.3 million
dollars. Rusk seeks this relief because, he argues, the court was led to rule against him based on
alleged misrepresentations from opposing counsel.41 Rusk alleges these misrepresentations are
outlined in a June 9, 2020 judicial misconduct complaint he filed against the undersigned, a copy
of which is attached to his Rule 11 Motion 42 Following an opening paragraph describing his
requested relief, the Motion itself simply recites Rule 11 and various Advisory Committee notes
to it43
In the weeks after filing his Rule 11 Motion, Rusk filed various documents pertaining to
his complaints against Fidelity’s counsel. These include: 1) an August 11, 2020 Affidavit
attaching a July 8, 2020 Tetter of intent to sue’ Fidelity’s counsel;44 2) an August 20, 2020 notice

38 Id. (citing 28 U.S.C. §§ 1253,1254).
39 Dkt. 290.
40 Dkt. 291.
41 Id. at 1.
42 Dkt. 291-2 (Exhibit C).
43 Id. at 1-11.
44 Dkt. 292 and 292-1.

6

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5654 Page 7 of 17

from a process server regarding attempt's to serve Fidelity’s counsel with an umdenFifieddocument,45 and 3) an August 24, 2020, return of service of documents on Fidelity’s counsel.46
None of these documents indicate that Rusk served Fidelity’s counsel with the Rule 11 Motion
before it was filed with the court on August 1, 2020.
On September 14, Rusk filed a Request to Submit his Rule 11 Motion for decision,47 and
on September 28, 2020, filed an Ex Parte Request for Status Update and Notice of New
Information.48 In the Request for Status Update, Rusk asks the court to “update the parties with
the date it intends to make a decision on the matters pending before it.

”49

In the Notice of New Information, Rusk informs the court that he has filed police reports
against persons he believes have filed false declarations or police reports. He asks that three
pages be “enter[] into the record” showing what he believes “demonstrate that a falsified police
report was filed by opposing [c]ounsel... in an effort to mislead the Court and try and get the
case dismissed on improper grounds in their last ditch effort, ”50 The three pages appear to be
documents from Salt Lake City Police. They suggest that on April 3, 2019, an officer twice
called Fidelity’s counsel regarding an incident, leaving a detailed message inquiring if he
“needed further police assistance,” and asking counsel “that if he wish[ed] to have police
assistance, to email me.”51 As of that date, the police file was to be closed for inactivity.52

45 Dkt. 293
46 Dkt. 294.
47 Dkt. 295.
48

Dkt. 297.

49 Id. at 1.
50 Id. at 1.
51 Dkt. 291-1 at 2-3.
52 Id. at 3.

7

—"3

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5655 Page 8 of 17

Discussion
1.

Objection/Point of Information and Request for Clarification re: Order on
Plaintiff's Rule 60 Motion.53

Rusk argues in this filing that the court erred in its November 19, 2019 Order denying his
Rule 60 Motion by failing to “address ... [the] motion in terms of Rule 60(b)(6). „54 Rule
60(b)(6) provides that the court may relieve a party “from a final judgment, order, or proceeding
for ... any other reason that justifies relief.” Rusk claims in this filing that relief is justified
under this Rule because he “didn’t even get the chance at reasonable access to an attorney who
would zealously represent [him]... ,”55 Rusk specifically quotes emails from various attorneys
who declined to represent him from June 2015—six months before Rusk initiated this action—
until January 2017, and complains that allegedly defamatory statements made in 2016 by a
magistrate judge assigned to the case “could be seen to have barred Rusk from obtaining
reasonable and fair access to attorneys. m56
The court overrules this Objection. First, while Rusk faults the court for not evaluating
his Rule 60 Motion under Rule 60(b)(6), that provision was never cited in Rusk’s Rule 60
Motion. Instead, Rusk expressly brought the Motion under Rule 60(d)(3), arguing that a fraud
perpetrated on the court warranted relief from the April 30, 2019 Order and Judgment. That
basis for relief was thoroughly evaluated and rejected in the November 19, 2019 Order.

53 Dkt. 286.
54 Id. at 1 and 4.
55 Id. at 1.
56 Id. at 4.

8

r ■

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5656 Page 9 of 17

Second, in any event, Rusk is unpersuasive in arguing-that-any-6Ourt-statementsjrL2.0J6—
barred Rusk from obtaining counsel to pursue his employment civil rights claims.57 Viewing the
quotes from attorneys who declined representation, some did so in 2015, before the alleged 2016
statements. Others declining representation in 2016 and 2017 provide specific reasons for doing
so unrelated to any statements from the court. For example, one in 2016 states that the case
appears to be “a little bit bigger ... than a firm our size would be able to take on ....” An
attorney declining representation in 2017 did so because he was unlicensed to practice law in
Utah, while another states that the attorneys at a nonprofit legal organization are already “at
capacity.” Two attorneys in 2016 and 2017 do not offer a reason for declining representation,
but there is no evidence linking any court statements to their decision to decline representation.
Moreover, Rusk in fact had counsel for a period in this case, prior to its dismissal: three attorneys
entered appearances on his behalf beginning in February 2018 until he was once again acting pro
se in February 2019.
For these reasons, the Objection is overruled.
2.
Ex-Parte Notice of [United States Supreme Court] Letter and ex parte
Motion for Extension to File Appeal/ Notice of Appeal to [United States Tenth Circuit
Court of Appeals]. 58
Citing Rule 4(a)(5), Federal Rules of Appellate Procedure, Rusk ask the court to grant
him an extension of time to appeal the court’s November 19, 2019 denial of his Rule 60 Motion

57 In January 2016, the magistrate judge initially assigned to this case granted Rusk’s request for appointment of
counsel granting him counsel for the limited role of helping him evaluate whether his claims were legally
cognizable and review the motions filed to date. Dkt. 19. In May 2016, the second magistrate judge assigned to this
case reconsidered and denied the granting of appointed counsel because despite court staff efforts, willing counsel
could not be secured even in a limited role, “[d]ue in large part to [Rusk’s] own actions.” Dkt. 44 at 3. The court
further concluded that Rusk had not shown his claims to have sufficient merit or to be unduly complicated to
warrant the appointment of counsel, or that Rusk could not adequately pursue the claims without counsel. Id. at 4.
A second motion for appointed counsel was denied for the same reasons in April 2017 by the third magistrate judge
assigned to this case. Dkt. 99 at 2.
58 Dkt. 289.

9

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5657 Page 10 of 17

to the Tenth Circuit Court ot Appeals, or granraTchearing-on-that-4VIoti0n-b.y-a.thr.ce-j.udge
district court panel—relief Rusk hopes will facilitate a direct appeal to the United States
Supreme Court.59 This Motion is unopposed.
Federal Rule of Appellate Procedure 4(a)(1)(A) provides that generally, in civil cases
against parties other than the United States, a litigant must file a notice of appeal with the district
clerk “within 30 days after entry of the judgment or order appealed from,

956O

But Rule 4(a)(5)

provides that the “district court may extend the time to file a notice of appeal if:”
a party so moves no later than 30 days after the time prescribed by
(i)
this Rule 4(a) expires; and
(ii)
regardless of whether its motion is filed before or during the 30
days after the time prescribed by this Rule 4(a) expires, that party shows
excusable neglect or good cause.
On December 4, 2019, Rusk timely appealed the court’s November 19, 2019 denial of his
Rule 60 Motion—but to the Supreme Court, rather than the Tenth Circuit. The Supreme Court
Clerk returned the appeal in a letter dated December 19, 2019 for a number of reasons, including
that “[a] direct appeal from a United States district court [to the Supreme Court] is allowed only
from a three-judge district court order.61
Rusk urges the court to excuse his error in appealing to the wrong court because he was
operating under a mistaken belief that the Supreme Court was the appropriate court to resolve
what he perceived as a ‘circuit split’ in the law relevant to his Rule 60 Motion.62 Rusk

59 Dkt. 289 at 3.
60 Fed. R. App. P. 4(a)(1)(A).
61 This was Rusk’s first motion brought expressly under Rule 60. A prior Objection, which the court liberally
construed as a Rule 60 Motion, was filed and denied in May 2019. Dkts. 271 (Objections) and 272 (Order).
62 Dkt. 289 at 2 (explaining Rusk appealed to the Supreme Court to “save[] cost[s] and resources and conserve[] the
public record of the [Supreme Court] was to have jurisdiction and resolve the circuit split. Unfortunately[,] the rules
appear to contradict this good faith intent and constrict said objective.”).

10

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5658 Page 11 of 17

emphasizes that he timely appealedthe-Novemberl'9r20t9i9rder-within-l-S-day-s~after-said----order,” but to the wrong court.63 He received the response from the Supreme Court “within
around a week” after December 19, 2019,64 and therefore could not have filed a timely appeal to
the Tenth Circuit Court of Appeals within 30 days of the court’s November 19, 2019 Order.
Under the above-discussed Rules, Rusk was generally required to file his notice of appeal
of the November 19, 2019 Order no later than December 23, 2019.65 He timely did so, but filed
his appeal in the wrong court. On January 13, 2020, Rusk timely filed his Motion for an
extension of time to file an appropriate appeal well within thirty days of December 23, 2019.66
The only issue remaining is whether Rusk has shown “excusable neglect or good cause. ? >67
“The excusable neglect standard applies in situations in which there is fault; in such
situations, the need for an extension is usually occasioned by something within the control of the
movant.”68 In determining whether excusable neglect exists, relevant considerations “include
‘the danger of prejudice to [the nonmoving party], the length of the delay and its potential impact
on judicial proceedings, the reason for the delay, including whether it was within the reasonable
control of the movant, and whether the movant acted in good faith. ?»69
In contrast, good cause is shown in a “narrow class of cases” where ‘“there is no fault—
excusable or otherwise’” attributed to the party seeking an extension.70 In such cases, “‘the need

63 Id.
64 Id.
65 Fed. R. App. P. 4(a)(1)(A). December 21, 2019, the date thirty days after November 19, 2019, was a Saturday.
December 23, 2019 was the first weekday following December 21.
66 Fed. R. App. P. 4(a)(5)(i).
67 Fed. R. App. P. 4(a)(5)(ii).
68

Fed. R. App. P. 4(a)(5) Advisory Committee's note (2002 Amendments).

69 Id. at 1206 (quoting City of Chanute v. Williams Natural Gas Co., 31 F.3d 1041, 1045 (10th Cir.1994)).
70 Bishop v. Corsentino, 371 F.3d 1203, 1207 (10th Cir. 2004) (quoting Fed. R. App. P. 4(a)(5) Advisory
Committee's note (2002 Amendments) (other citations omitted)).

11

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5659 Page 12 of 17

for an extension is usually occasioned^by~5-om-ething-that-is-nGt^withi.n-the.c,ftntrQLpf the
movant. 5 5,71
Rusk’s misdirected appeal set in motion the eventual delay at issue. Thus, his Motion is
evaluated under the “excusable neglect” standard. The court concludes it has been met, and that
a short extension of time to appeal the November 19, 2019 Order is warranted.
First, the court cannot conclude that there is a danger of significant prejudice to the
nonmoving party. Fidelity was put on timely notice that Rusk had appealed the November 19,
2019 Order—but that Rusk had appealed to the Supreme Court. Thus, there is no surprise that
Rusk was seeking to appeal, even if he initially did so improperly. Moreover, Fidelity has not
opposed Rusk’s Motion. And while it undoubtedly does not wish to defend an appeal of the
court’s November 19 Order, the prejudice from an extension does not appear significant, where
there was only a short delay between the December 23, 2019 appeal deadline and Rusk s January
13, 2020 Motion for an extension.
Second, Rusk has offered an explanation for his mistaken appeal to the Supreme Court—
he believed the Court would resolve a circuit split. And though it does not excuse a failure to
abide by the Rules, the court cannot ignore Rusk’s pro se status in making this mistake, which he
promptly tried to remedy. In this instance, Rusk does not appear to be acting in bad faith by
pursuing an extension under the Rules.
Finally, while Rusk’s failure to timely file a proper notice of appeal by December 23,
2019 appears at root to be caused by his decision to appeal on December 4, 2019 to the wrong
court—an action within his control—that mistake may have been exacerbated by a timing issue

71 Id. (quoting Fed. R. App. P. 4(a)(5) Advisory Committee's note (2002 Amendments)).

12

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5660 Page 13 of 17

not directly within his control, it is unclear exaorly^heniTuskneeeived-the-December.J.9-,_20_L9.
notice from the Supreme Court that his appeal was improper. Rusk has stated that it was not
until sometime in the week after December 19, 2019. That week began on December 23, 2019,
the last date for Rusk to appeal the November 19, 2019 Order. Assuming he did not receive
notice from the Supreme Court before then, the timing of the Supreme Court letter left him
unable to cure his own mistake with a timely notice.
Based upon the foregoing, the court concludes Rusk has shown excusable neglect and
that a short extension of time for Rusk to file an appeal of the November 19, 2019 Order is
warranted. The court grants Rusk an extension of fourteen (14) days from the date of this Order
to file a proper notice of appeal. This conclusion renders moot Rusk’s alternative request for
rehearing of his Rule 60 Motion by a three-judge panel of district court judges, and that relief is
therefore denied.
3.

Rule 11 Motion.72

In a paragraph-long argument, Rusk argues in his Rule 11 Motion that the court should
piece together information variously attached as exhibits to conclude that Fidelity’s counsel
made misrepresentations to the court, which Rusk seems to suggest caused the court to dismiss
his claims.73 He asks the court to reinstate the case or to order Fidelity’s counsel to pay him over
four million dollars as a sanction. The court declines to do so, and instead denies the Motion.
Rule 11(b), Federal Rules of Civil Procedure, provides that “[b]y presenting to the court a
pleading, written motion, or other paper—whether by signing, filing, submitting, or later

72 Dkt. 291.
73 Id.

13

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5661 Page 14 of 17

advocating it—an attorney or unrepresentsd*party certifieS’that-to4he-best.o£.the,person_s--------knowledge, information, and belief, formed after an inquiry reasonable under the circumstances:
(1) it is not being presented for any improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation;
(2) the claims, defenses, and other legal contentions are warranted by existing law
or by a nonfrivolous argument for extending, modifying, or reversing existing law
or for establishing new law;
(3) the factual contentions have evidentiary support or, if specifically so
identified, will likely have evidentiary support after a reasonable opportunity for
further investigation or discovery; and
(4) the denials of factual contentions are warranted on the evidence or, if
specifically so identified, are reasonably based on belief or a lack of information.
The Tenth Circuit has emphasized that “the central purpose of Rule 11 is to deter baseless filings
in district court and thus ... streamline the administration and procedure of the federal
courts. „74 This is important, where “[b]aseless filing puts the machinery of justice in motion,
burdening courts and individuals alike with needless expense and delay.”75
Under Rule 11(c)(2), a party may move the court to sanction a party or attorney if a
violation has occurred. But a “safe-harbor” provision in that subsection requires a party to serve
a copy of the Rule 11 motion on the other party to give that party an opportunity to withdraw or
correct the challenged document before filing the sanctions motion with the court:
The motion must be served under Rule 5, but it must not be filed or be presented
to the court if the challenged paper, claim, defense, contention, or denial is
withdrawn or appropriately corrected within 21 days after service or within
another time the court sets.

74 Collins v. Daniels, 916 F.3d 1302, 1322-23 (10th Cir.), cert, denied, 140 S. Ct. 203 (2019), reh'g denied, 140 S.
Ct. 567, 205 L. Ed. 2d 377 (2019) (citations omitted).
75 Id. at 1323 (citations omitted).

14

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5662 Page 15 of 17

InHppH thp T^nth Cimiit Court nt'AppMls~tias-held-it-is-an-abuse-of-discretion-for.a_court to
grant Rule 11 sanctions if the serving party did not comply with the safe harbor provision.76
Following this guidance, the court denies Rusk’s Rule 11 Motion. Setting aside the lack
of any clarity in his argument, Rusk has first and most clearly failed to demonstrate compliance
with Rule 11 ’s safe harbor provision. He has, at best, shown he served Fidelity’s counsel with a
letter of intent to sue him in July 2020, before filing the Motion on August 1. This is
insufficient.
Second, the Motion is untimely. It comes nearly a year and a half after the case was
dismissed and judgment entered, after multiple motions or objections Rusk filed opposing that
dismissal order and judgment have been denied, and after Rusk attempted to file an appeal.
Some of the complaints Rusk lodges concern denials in Fidelity’s Answer to Rusk’s Third
Amended Complaint—an Answer filed nearly two years ago.77 The purpose of Rule 11—to
deter and cure alleged violations—would not be served by permitting these late complaints,
particularly coupled with an outlandish alternative demand for over four million dollars.
Third, concerning the substance of the Motion, the court finds no violations of Rule 11,
particularly violations warranting any sanctions, even in the late-filed documents Rusk has filed
since his Rule 11 Motion. For instance, in producing police records suggesting Fidelity’s
counsel failed to return a call to the police concerning complaints against him, Rusk suggests that
Fidelity’s counsel filed a false police report to manufacture evidence to persuade the court to rule
against Rusk. The court did not hinge its decision to dismiss Rusk’s claims on the filing and
pursuit of a police report—though it was mentioned in passing in the court’s Order. The

16 Mellotl v. MSN Commc'ns, Inc., 492 F. App'x 887, 888 (10th Cir. 2012) (citing Roth v. Green, 466 F.3d 1179,
1191-92 (10th Cir. 2006)).
77 Dkt. 201.

15

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5663 Page 16 of 17

rHcmiggal

haspd nn Kmlc’sT>wn-actrons-in-vielating-a.prior_order in the case limiting his

emails and the threatening nature of the emails—which the court independently found.
Likewise, the court finds no merit in Rusk’s suggestion in his Affidavit that the
voluminous and threatening emails Fidelity’s counsel relied on in seeking dismissal were
inadmissible settlement discussions under Rule 408, Federal Rules of Evidence.78 Setting aside
the absurdity of shielding evidence of violations of a court order from view of the court by
labeling them settlement discussions, Rule 408 does not support Rusk’s contention. The Rule
only bars admission of settlement discussions to “prove or disprove the validity or amount of a
disputed claim or to impeach by a prior inconsistent statement or a contradiction....

„79

For these reasons, the court denies Rusk’s Rule 11 Motion.
4.
Request to Submit for Decision Rule 11 Motion,80 Request to Submit for
Decision, or Recuse,81 and Ex-Parte Request for Status Update.82
Rusk’s Requests to Submit seek rulings on the various Requests and Motions he has
filed. Those Requests are granted, as the court has now ruled on the pending Requests and
Motions. The alternative request for the court to recuse, and the request for a status update are
denied as they are mooted by the court’s rulings.83

78 Dkt. 292 at 2.
79 Fed.R. Evid.408(a).
80 Dkt. 295.
81 Dkt. 290.
82 Dkt. 296.
83 Even if the alternative request for recusal were not moot, the undersigned would decline to recuse. Here, the court
recognizes the judicial complaint that Rusk has lodged against him and placed in the record. Under some
circumstances, a complaint might support recusal. But here they do not. The allegations in Rusk s complaint are
largely directed to others. But even viewing the allegations against the undersigned, the court concludes under the
circumstances of this case, recusal is unwarranted and would be inappropriate. See also Committee on Codes of
Conduct, Advisory Opinion No. 103, Guide to Judiciary Policy, Vol. 2B, Ch. 2 at 187—192 (June 2009),
https://www.uscourts.gov/sites/default/files/guide-vol02b-ch02-2019_fmal.pdf (discussing considerations for judges
when litigants file complaints).

16

Case 2:15-cv-00853-RJS Document 298 Filed 09/30/20 PagelD.5664 Page 17 of 17

CONCLUSION
For the foregoing reasons:
1. Rusk’s Objection84 is overruled',
2. The Motion for Extension to File Appeal85 is granted in part, as the court grants Rusk a
fourteen (14) day extension of time to appeal the November 19, 2019 Order at issue, and
denied in part, as the court denies Rusk’s alternative request for a three-district judge
hearing on his Rule 60 Motion;
3. The Rule 11 Motion86 is denied;
4. The Request to Submit for Decision Rule 11 Motion87 is granted;
5. The Request to Submit or Recuse is granted in part as the court is ruling on all pending
motions and requests, and denied in part, as the court declines the alternative request to
recuse; and
6. The Ex-Parte Request for Status Update88 is denied as it is moot given the court’s rulings.

SO ORDERED this 30th day of September 2020.
BY THE COURT:

ROBERT jyHELBY
United Stres Chief District Judge

84

Dkt. 286.

85 Dkt. 289.
86

Dkt. 291.

87 Dkt. 295.
88

Dkt. 296.

17

